          I [ -                                  NATIONALSCIENCE FOUNDATION
                                                      4201 WILSON BOULEVARD
                                                     ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL

  MEMORANDUM

  Date:                              March 3 1, 1997

  To:
 ..... ---...     .....   .-..                                                                                   ..   ..............................   .........


  Through:                       s      p    e   c     i   a            l

  From:
                                                                                          y, Investigations Section
                                                           --
                                 I                                                                    1- Case Close Out
                                        ..                     -,   .   ....-..-.....   . . . . . .



                                                                                                                ,
   O n September 13, 1996, an accountant from Madison, WI referre
   office concerning NSF's
   While conducting an audit for the
 t        h      e accountrint's audi
   manager and             executive director, was often not at the sites that he said he
                          business. Thev also heard t h a m a d a financial interest in
                         , a vendor for th-gant.

                                             stated that      had been absent from many
                                             ; and conferences.'
  manager and his-                          v.      . .
                                            , , the uroiect
  how much t i m m h a d charged to the grant, but he was not present very often. She
  also stated that she has assigned other staff members to do-         work because he is
                                                    could have been doing work for the
                                                   ) during the time that he was supposed


                has been the PI and Co-PI on the following NSF awards since 1991:

  NSF grant no.

  NSF grant no.



  I   As stated in the budget j u s t i f i c a t i o n , e s p o n s i b i l i t i e s did not include leading and developing
                            His job tasks did include site development and visitation, however.
                               e l e p h o n e d NSFOIG and agreed to a voluntary interview, which took place on
                                 January 16, 1997. Prior to the interview,          provided, on a voluntary basis, a journal
                                 of his work activities and timesheets for           grants detailing all of the time he spent

                                                                                     L
I
                                 working on various projects and assignments.                 also brought documents to the
                                 interview, including a calendar where he records a1 y                         and the original
I                                copy of his journal as well as other information about                   and his various work
                                 activities. After the i n t e r v i e w , m n t us copies of                      for t h m
                               m                  s that he had attended as well as copies of his timecards. Based upon
I                                the documents provided, we found no evidence or patterns of fraud or mischarging to
                              .- the grant.
I

    ..   . .. .-   -   .. .




                              m r o v i d e d us with a sworn statement explaining his job responsibilities and
                              positions, current projects, record keeping, and relationship to
                                       He explained that he kept various records and j                       o          w
                              information he listed on the timesheets. He began keeping these records after hearing
                              rumors relating to his conduct on grants. In a d d i t i o n p t a t e d that he has always
                              been accessible to his staff through a pager and cellular phone.

                                                                                 non-profit company that he began with a
                                                                                      camping and other equipment.      m
                                                                                               thereby recovering the costs
                               of the                                                         stated that he had never paid
                                                                                          any evidence contrary to
                               explanations.                                               of the allegations
                               company and                                                   i n m i g h t conflict with his
                               other work responsibilities.

                                   is the current treasurer for th               has held that position since 1994.
                               said that all travel and                         functions are reimbursed through
                                            admitted                              conducted work for his NSF grants in
                               conjunction with his             travel, and therefore charged the grants accordingly.
                               These charges                                                memorandums for travel
                               reimbursements.

                               We reviewed the timesheets, participant support payments and journal records for the
                                                                  grantsZand have found no evidence
                                                                    grant, nor have we
                               of fraud. In addition, we have foun no evidence showing that       financial interest
                               in 8   influenced the management of t h e m g r a n t . Based
                               case is closed.




                                We also reviewed the timesheets that
                                                                       m
                                                                       provided for NSF grant no.                          .
